                                               OFFICE OF WORKERS’
                                               COMPENSATION PROGRAMS
Office of Inspector General—Office of Audit





                                               DISTRICT OF COLUMBIA WORKERS’
                                               COMPENSATION ACT SPECIAL FUND
                                               FINANCIAL STATEMENTS AND
                                               INDEPENDENT AUDITORS’ REPORT
                                               September 30, 2011 and 2010


                                                 This report was prepared by KPMG, LLP, under contract to the U.S.
                                                 Department of Labor, Office of Inspector General, and by acceptance, it
                                                 becomes a report of the Office of Inspector General.



                                                                                ____________________________
                                                                                Assistant Inspector General for Audit


                                                                             Date Issued:            March 1, 2012 

                                                                          Report Number:             22-12-005-04-432 

                                      District of Columbia Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKERS’

                          COMPENSATION ACT SPECIAL FUND 


                                  TABLE OF CONTENTS
                                                                                          Page
ACRONYMS                                                                                     iii

Management’s Discussion and Analysis
  Mission and Organizational Structure                                                       1

  Financial Highlights                                                                       2

  Performance Goals and Results                                                              2

  Internal Controls                                                                          3

  Known Risks and Uncertainties                                                              4

  Limitations of the Financial Statements                                                    4

Independent Auditors’ Report                                                                 5

FINANCIAL STATEMENTS
  Balance Sheets                                                                            13 

  Statements of Net Cost                                                                    14 

  Statements of Changes in Net Position                                                     15 

  Statements of Budgetary Resources                                                         16 


NOTES TO THE FINANCIAL STATEMENTS
  Note 1 – Summary of Significant Accounting Policies                                       17 

  Note 2 – Funds with U.S. Treasury                                                         20 

  Note 3 – Investments, Net                                                                 21 

  Note 4 – Accounts Receivable, Net                                                         22 

  Note 5 – Other Liabilities                                                                23 

  Note 6 – Status of Budgetary Resources                                                    24 

  Note 7 – Reconciliation of Budgetary Resources Obligated 

           to Net Cost of Operations                                                        25 

  Note 8 – Concentration of Risk                                                            25 





_________________________________________________________________________________________
                                          U.S. Department of Labor – Office of Inspector General
i                                                             Report Number: 22-12-005-04-432
                                       District of Columbia Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





  _________________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
ii                                                              Report Number: 22-12-005-04-432
                                       District of Columbia Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                            DISTRICT OF COLUMBIA WORKERS’

                            COMPENSATION ACT SPECIAL FUND 



                                           Acronyms 




AUP           Agreed Upon Procedures

DCCA          District of Columbia Workers’ Compensation Act

DLHWC         Division of Longshore and Harbor Workers’ Compensation

DOL           Department of Labor

Fund          District of Columbia Workers’ Compensation Act Special Fund

FY            Fiscal Year

LHWCA         Longshore Harbor Workers’ Compensation Act

OMB           Office of Management and Budget

OWCP          Office of Workers’ Compensation Programs

Program       District of Columbia Workers’ Compensation Act Program

U.S.C.        United States Code




  _________________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
iii                                                             Report Number: 22-12-005-04-432
                                       District of Columbia Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





 _________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iv                                                             Report Number: 22-12-005-04-432
                                  District of Columbia Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                         DISTRICT OF COLUMBIA WORKERS’

                         COMPENSATION ACT SPECIAL FUND 

                         Management’s Discussion and Analysis
                              September 30, 2011 and 2010


Mission and Organizational Structure

Two Special Funds are administered by the Office of Workers’ Compensation Program
(OWCP) under Section 44 of the Longshore and Harbor Workers’ Compensation Act
(LHWCA); the Longshore and Harbor Workers’ Compensation Act Special Fund created
under the original Act in 1927 and the Special Fund under the District of Columbia
Workers’ Compensation Act of 1928 (DCCA). These funds were established for the
primary purpose of equitably distributing among all employers the liabilities associated
with second injury claims (a “second injury” is an injury to a worker which, in combination
with an existing permanent partial impairment, results in the worker’s increased
permanent disability or death).

The reporting entity is the District of Columbia Workers’ Compensation Act Special Fund
(the Fund). Organizationally the Fund is administered by the Department of Labor (DOL),
OWCP, Division of Longshore and Harbor Workers’ Compensation program (DLHWC).
The DLHWC has direct responsibility for administration of the Fund. The mission of the
Fund is to effectively administer a program of compensation and medical benefits to
cover workers who are injured on the job or suffer from occupational disease. The
DLHWC has direct responsibility for all aspects of the administration of the Fund.

The Fund supports the program mission by providing compensation, and in certain
cases, medical care payments to District of Columbia employees for work related injuries
or death. Effective July 26, 1982, the District of Columbia became responsible for
administration and operation of a separate special fund to cover post July 26, 1982,
injury cases.

The DCCA provides medical benefits, compensation for lost wages and rehabilitation
services for job-related injuries, diseases or death of certain private-sector workers in the
District of Columbia. Generally, benefits are paid directly from private funds by an
authorized self-insured employer or through an authorized insurance carrier. Cases
meeting the requirements of the LHWCA as extended to DCCA are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal years (FY) 2011 and 2010, 498 and 529 respectively injured workers
and their dependants received compensation benefits from the Fund.

Additionally, the DCCA incorporates Section 10(h) of the LHWCA, which provides annual
wage increase compensation (cost of living adjustments). Fifty percent of this annual
wage increase for pre-1972 compensation cases is paid by Federal appropriated funds,
                                                                                                  

                                         U.S. Department of Labor – Office of Inspector General
                                            1                Report Number: 22-12-005-04-432
                                 District of Columbia Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report



                        DISTRICT OF COLUMBIA WORKERS’

                        COMPENSATION ACT SPECIAL FUND 

                        Management’s Discussion and Analysis
                             September 30, 2011 and 2010


and fifty percent is paid by the Fund through the annual assessment.

Appropriated funding for Section 10(h) is not reflected in the accompanying financial
statements. Appropriated funding is reflected in the Federal Employees Compensation
Act Special Benefit Fund.

Although the Fund is administered by the Secretary of Labor, the U.S. Treasury is the
Custodian, holding the funds in trust. The Fund is not property of the United States, but
can only be disbursed as specified in Section 44(i) of the LHWCA. Administrative
services for operating the Fund are provided by the OWCP through direct Federal
Appropriations. Appropriated funding for administrative services is not reflected in the
accompanying financial statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$7,877,262 in FY 2011. This compares with assessment revenue of $8,431,773 for FY
2010.

In addition, investment income for the Fund was $2,326 for FY 2011 compared to $4,773
for FY 2010. The average interest rate earned during FY 2011 was 0.07% compared to
0.10% for FY 2010.

The Fund’s costs remained relatively stable compared to FY 2010; $9,073,261 for FY
2011 compared to $9,358,393 for FY 2010. Proceeds of the Fund are used for payments
under: Section 8(f) for second injury claims; Section 10(h) for initial and subsequent
annual adjustments in compensation for permanent total disability or related death from
injuries which occurred prior to the effective date of the 1972 LHWCA amendments; and
Section 18(b) for compensation to injured workers in cases of employer default.

Performance Goals and Results

The DLHWC’s administration of the Fund supports DOL’s Strategic Goal 4 – Secure
health benefits and, for those not working, provide income security. This goal broadly
promotes the economic security of workers and families. In particular, the DLHWC’s
administration of the Fund supports Performance Goal 4.2 – Reduce the Consequences
of Work-Related Injuries. DOL plays a large role in ensuring that worker benefits are
                                                                                                 

                                        U.S. Department of Labor – Office of Inspector General
                                           2                Report Number: 22-12-005-04-432
                                District of Columbia Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report



                       DISTRICT OF COLUMBIA WORKERS’

                       COMPENSATION ACT SPECIAL FUND 

                        Management’s Discussion and Analysis
                            September 30, 2011 and 2010


protected and that employers administer benefit programs in an appropriate way. The
DLHWC assists in meeting this outcome goal by establishing the long term performance
goal of ensuring sufficient funds are assessed to fund the annual payments, and by
prompt payment to the beneficiaries. In FY 2011, assessments were sufficient to cover
the costs, and no beneficiaries suffered a delayed payment.

Internal Controls

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management, Insurance and Assessment is comprised of four employees and one
supervisor. It guards against unethical behavior by segregating duties and assigning
roles to each function. Much of the oversight, evaluation, monitoring, control and
supervisory activity is informal and face-to-face.

Management communicates all procedural, policy, and operating goals to staff with
regular staff meetings, a written procedures manual, e-mails, and frequent individual
communications regarding changes, problems and issues.

All codes, statutes, and regulations governing the conduct of Federal employees apply to
Longshore Division employees. Examples include privacy statutes, cash handling
procedures, and conflict of interest regulations.

For cases paid by the Fund, a District Director or Administrative Law Judge issues a
formal Compensation Order to identify the payee and set the amount. Five employees
review each new case before making the payment to ensure accuracy.

With the exception of certain internal control deficiencies noted in the Independent
Auditors’ Report, monthly cash basis statements, monthly case management reports,
quarterly review processes, biweekly payment summaries, the Statement of Transactions
(SF-224), and the Statement of Differences (FMS-6652) all provide current, reliable, and
accurate information.




                                                                                                

                                       U.S. Department of Labor – Office of Inspector General
                                          3                Report Number: 22-12-005-04-432
                                  District of Columbia Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                         DISTRICT OF COLUMBIA WORKERS’ 

                         COMPENSATION ACT SPECIAL FUND 

                         Management’s Discussion and Analysis
                              September 30, 2011 and 2010


Known Risks and Uncertainties

The Fund makes assessments on authorized insurers and self-insurers one year at a
time for current expenses; there is no reserve for future Fund obligations. In keeping with
the requirement of Section 44 of the LHWCA, obligations are paid as they are incurred.
Assessments are based on compensation and medical benefits paid in the prior calendar
year. The District of Columbia Workers’ Compensation Act of 1928 has been repealed
and the Fund only assesses based on payments in cases that arose prior to July 26,
1982. The annual Fund assessment is assessed against a shrinking base of industry
payments. These payments are concentrated among a relatively few insurance carriers
and self-insured employers (56 in total). For example, the largest ten payers of
assessments (including four self-insured employers) fund 68.7% of the Fund’s
assessments. If one or more of the largest payers became insolvent and was unable to
pay their assessment obligations, temporary collection issues would result, necessitating
special, unscheduled assessments or other actions to ensure the Fund has sufficient
liquid resources to fund claims liabilities as they come due.

Limitations of the Financial Statements

The following are limitations of the financial statements:

	 The financial statements have been prepared to report the financial position and
   results of operations of the Fund, pursuant to the requirements of the Longshore and
   Harbor Workers’ Compensation Act (33 U.S.C. 944(j)).
	 While the statements have been prepared from the books and records of the Fund in
   accordance with the formats prescribed by the Office of Management and Budget,
   (OMB), the statements are different from the financial reports used to monitor and
   control budgetary resources which are prepared from the same books and records.
	 The statements should be read with the realization that they are for a component of
   the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
   the enactment of an appropriation, and that the payment of all liabilities other than for
   contracts can be abrogated by the sovereign entity.




                                                                                                   

                                          U.S. Department of Labor – Office of Inspector General
                                             4                Report Number: 22-12-005-04-432
                                             District of Columbia Workers’ Compensation Act Special Fund
                                                    Financial Statements and Independent Auditors’ Report



                            KPMG LLP
                            Suite 12000
                            1801 K Street, NW
                            Washington, DC 20006




                               Independent Auditors’ Report


Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of Labor’s
(DOL) District of Columbia Workmen’s Compensation Act Special Fund (the Fund) as of
September 30, 2011 and 2010, and the related statements of net cost, changes in net
position, and budgetary resources (hereinafter referred to as “financial statements”) for the
years then ended. The objective of our audits was to express an opinion on the fair
presentation of these financial statements. In connection with our fiscal year 2011 audit, we
also considered the Fund’s internal control over financial reporting and tested the Fund’s
compliance with certain provisions of applicable laws and regulations that could have a
direct and material effect on these financial statements.
Summary
As stated in our opinion on the financial statements, we concluded that the Fund’s financial
statements as of and for the years ended September 30, 2011 and 2010, are presented
fairly, in all material respects, in conformity with U.S. generally accepted accounting
principles.
Our consideration of internal control over financial reporting resulted in identifying certain
deficiencies that we consider to be a material weakness, as defined in the Internal Control
Over Financial Reporting section of this report, as follows:

       Controls Over the Financial Reporting Process Need Improvement
The results of our tests of compliance with certain provisions of laws and regulations
disclosed no instances of noncompliance or other matters that are required to be reported
under Government Auditing Standards, issued by the Comptroller General of the United
States, and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
The following sections discuss our opinion on the Fund’s financial statements; our
consideration of the Fund’s internal control over financial reporting; our tests of the Fund’s
compliance with certain provisions of applicable laws and regulations; and management’s
and our responsibilities.



                                                                                                                       

                                                              U.S. Department of Labor – Office of Inspector General
                                                              5                   Report Number: 22-12-005-04-432
                              KPMG LLP is a Delaware limited liability partnership, 

                            the U.S. member firm of KPMG International Cooperative

                                     (“KPMG International”), a Swiss entity.

                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of Labor’s
District of Columbia Workmen’s Compensation Act Special Fund as of September 30, 2011
and 2010, and the related statements of net cost, changes in net position, and budgetary
resources for the years then ended.
In our opinion, the financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Labor’s District of Columbia
Workmen’s Compensation Act Special Fund as of September 30, 2011 and 2010, and its
net costs, changes in net position, and budgetary resources for the years then ended, in
conformity with U.S. generally accepted accounting principles.
The information in the Management’s Discussion and Analysis is not a required part of the
financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.
Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting was for the limited purpose
described in the Responsibilities section of this report and was not designed to identify all
deficiencies in internal control over financial reporting that might be significant deficiencies
or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies, or material weaknesses have been identified. However, in our fiscal
year 2011 audit, we identified certain deficiencies in internal control over financial reporting
that we consider to be a material weakness.
A deficiency in internal control exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material
weakness is a deficiency, or a combination of deficiencies, in internal control such that
there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis. We consider
the deficiencies described in Exhibit I to be a material weakness.
Exhibit I presents the status of the prior year material weakness.
Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of this
report, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

                                          *******
                                                                                                   

                                            U.S. Department of Labor – Office of Inspector General 

                                            6                   Report Number: 22-11-005-04-432

                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




Responsibilities

Management’s Responsibilities. Management is responsible for the financial statements;
establishing and maintaining effective internal control; and complying with laws and
regulations applicable to the Fund.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year
2011 and 2010 financial statements of the Fund based on our audits. We conducted our
audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and OMB Bulletin
No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform
the audits to obtain reasonable assurance about whether the financial statements are free
of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
Fund’s internal control over financial reporting. Accordingly, we express no such opinion.
An audit also includes:
	   Examining, on a test basis, evidence supporting the amounts and disclosures in the
     financial statements;
	   Assessing the accounting principles used and significant estimates made by
     management; and
	   Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2011 audit, we considered the Fund’s internal
control over financial reporting by obtaining an understanding of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the Fund’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the Fund’s
internal control over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
As part of obtaining reasonable assurance about whether the Fund’s fiscal year 2011
financial statements are free of material misstatement, we performed tests of the Fund’s
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of the financial statement
amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04. We limited our tests of compliance to the provisions described in the preceding
                                                                                                  

                                           U.S. Department of Labor – Office of Inspector General 

                                           7                   Report Number: 22-11-005-04-432

                                 District of Columbia Workmen’s Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report




sentence, and we did not test compliance with all laws and regulations applicable to the
Fund. However, providing an opinion on compliance with laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.
                           ______________________________
The Fund’s response to the finding identified in our audit is presented in Exhibit I. We did
not audit the Fund’s response and, accordingly, we express no opinion on it.
This report is intended solely for the information and use of DOL’s management, DOL’s
Office of Inspector General, OMB, the U.S. Government Accountability Office, and the U.S.
Congress and is not intended to be and should not be used by anyone other than these
specified parties.




February 17, 2012




                                                                                                 

                                          U.S. Department of Labor – Office of Inspector General 

                                          8                   Report Number: 22-11-005-04-432

                                   District of Columbia Workmen’s Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                                                                                         Exhibit I


Controls Over the Financial Reporting Process Need Improvement
During our fiscal year (FY) 2010 audit, we noted that the internal controls over the
preparation and review of the Fund financial statements performed by the Office of
Workers’ Compensation Programs (OWCP) Division of Longshore and Harbor Workers’
Compensation program (DLHWC) and Office of the Chief Financial Officer (OCFO) were
not operating effectively. We recommended that management improve its internal controls
over financial reporting to ensure that (1) reconciliations between the Fund’s general ledger
account balances and balances reflected in subsidiary ledgers are being prepared and
reviewed consistently throughout the year; (2) supervisory review controls, including those
over journal entries are being effectively performed; (3) SF-224s are being thoroughly
reviewed prior to submission to Treasury; and (4) differences identified by Treasury are
resolved on a timely basis.

Although OWCP has made some improvement in its financial reporting processes, we
continued to identify certain control deficiencies in FY 2011 related to controls over financial
reporting. Specifically, during our review of the draft FY 2011 Fund financial statements and
notes, we noted the following errors:

1. When comparing beginning balances reported in the draft Statement of Changes in Net
   Position (SCNP) to the related ending balances reported in the FY 2010 audited
   financial statements, we noted that Cumulative Results of Operations (CRO) –
   Beginning balance, October 1, 2010, was overstated by $2.6 million. This error was
   related to a topside adjustment presented in the audited FY 2010 financial statements.
   Additionally, the affect of the FY 2010 topside adjustments were incorrectly reported in
   the line item “FY 2010 Audit Adjustments” on the Statement of Net Cost (SNC) and
   SCNP.
2. The balance reported for Appropriations Received was understated by $2.4 million.
3. Numerous FY 2010 balances shown for comparative purposes in the draft FY 2011
   financial statements and notes did not agree to the amounts reflected in the FY 2010
   audited financial statements and notes.
4. The description of the reporting entity and key performance goals included in the
   Management’s Discussion and Analysis section of the draft FY 2011 report were not
   accurate.
5. Reconciling items identified in Note 6(b), 	Explanation of differences between the
   Statement of Budgetary Resources and the Budget of the United States Government,
   were not explained.
These items were corrected by management in the final financial statements.

The issues above were primarily caused by certain adjustments (i.e., topside adjustments)
made by OWCP to the FY 2010 audited financial statements that were initially recorded

                                            U.S. Department of Labor – Office of Inspector General 

                                            9                   Report Number: 22-11-005-04-432

                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



outside of the general ledger. OWCP management was aware that the October 1, 2010
beginning balances and certain ending balances reported in the general ledger were
incorrect. However, management failed to implement an alternative process to ensure that
the FY 2011 financial statements were fairly stated, in all material respects, as of and for
the year ended September 30, 2011.

The remaining errors occurred because OWCP management does not have policies and
procedures that require a comprehensive and detailed review of all financial information in
the draft financial statements, including budgetary to proprietary account relationships. The
lack of sufficient review increases the risk that material errors or fraud would not be
detected and corrected timely.

We also noted that supervisory review controls over journal entries were not effectively
performed in FY 2011. This was caused by insufficient review by DOL supervisors of
journal entries to ensure they were properly prepared and supported before posting to the
general ledger. Furthermore, the Office of the Chief Financial Officer had not enhanced its
policies and procedures to address the minimum documentation requirements needed to
adequately support journal entries during the first two quarters of FY 2011; the policies and
procedures were subsequently updated in June 2011. Without proper review of
transactions, management is unable to determine the appropriateness of transactions
posted to the general ledger.

We used the following criteria during our FY 2011 testing over OWCP’s financial
processes:

The Government Accountability Office (GAO), Standards for Internal Control in the Federal
Government states, “Internal control should generally be designed to assure that ongoing
monitoring occurs in the course of normal operations. It is performed continually and is
ingrained in the agency’s operations. It includes regular management and supervisory
activities, comparisons, reconciliations, and other actions people take in performing their
duties.”

The Standards also state, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records, which provide evidence of execution of these
activities as well as appropriate documentation. Control activities may be applied in a
computerized information system environment or through manual processes.”

Further, the Standards state that, “Internal control should provide reasonable assurance
that the objectives of the agency are being achieved relative to reliability of financial
reporting, including reports on budget execution, financial statements, and other reports for
internal and external use and compliance with applicable laws and regulations.”

Office of Management and Budget (OMB) A-136, Financial Reporting Requirements
                                                                                                  

                                           U.S. Department of Labor – Office of Inspector General 

                                           10                  Report Number: 22-11-005-04-432

                                  District of Columbia Workmen’s Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



(Circular No. A-136), requires agencies to, “Identify and explain material differences
between amounts reported in the SBR and the actual amounts reported in the Budget of
the United States Government as required by SFFAS No.7.” Circular No. A-136 further
states that, “At a minimum, agencies should display the material differences for comparable
line items related to budgetary resources, obligations, distributed offsetting receipts and
outlays. The schedule should be accompanied by a narrative explaining to the reader why
the differences exist.”

To address the issues noted above, we recommend that OWCP management:

   1. Design and implement policies and procedures that require a comprehensive and
      detailed review of all financial information in the draft financial statements. The
      policies and procedures should include:

          1. Specific procedures for agreeing comparative prior year financial data to the
             prior year audited statements;
          2. Comparing financial data reported on the different statements to ensure
             accuracy and consistency;
          3. Reconciling the financial data between the general ledger and subsidiary
             ledgers to ensure existence, completeness, and accuracy of financial data
             reported;
          4. Performing a budgetary to proprietary account relationship analysis and
             resolving identified variances; and
          5. Analyzing significant variances between current period and prior period
             financial information.

   2. Develop monitoring controls to ensure that sufficient supervisory review controls
      over journal entries and the related documentation are being performed before the
      journal entries are posted to the general ledger.

Management’s Response:

Management concurs with the recommendations. By March 31, 2012, a checklist will be
developed and implemented for agreeing comparative prior year financial data to the prior
year audited statements; comparing financial data reported on the different statements to
ensure accuracy and consistency; reconciling the financial data between the general ledger
and subsidiary ledgers to ensure existence, completeness, and accuracy of financial data
reported; performing a budgetary to proprietary account relationship analysis and resolving
identified variances as appropriate; and analyzing significant variances between current
period and prior period financial information.

OWCP will implement another level of review to ensure that sufficient supervisory review
controls are being performed. Effective March 31, 2012, all journal entries will be submitted
to the Financial Manager for review and approval prior to their posting into the general
ledger.
                                                                                                  

                                           U.S. Department of Labor – Office of Inspector General 

                                           11                  Report Number: 22-11-005-04-432

                            District of Columbia Workmen’s Compensation Act Special Fund
                                      Financial Statements and Independent Auditors’ Report



Auditors’ Response:

FY 2012 audit procedures will determine whether these recommendations have been
adequately addressed and can be considered closed.




                                                                                            

                                     U.S. Department of Labor – Office of Inspector General 

                                     12                  Report Number: 22-11-005-04-432

                                          District of Columbia Workers’ Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKERS'
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2011 and 2010

                          Assets                                          2011               2010
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                               $         353     $      353,404
   Investments, net (Note 3)                                           4,042,000          5,143,000
            Total intra-governmental assets                            4,042,353          5,496,404
Accounts receivable, net (Note 4)                                        129,142            147,508
           Total assets                                            $   4,171,495     $    5,643,912
                Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                              $      47,943     $       26,076
  Deferred revenue (Note 1h)                                           1,999,941          1,875,886
  Other liabilities (Note 5)                                             154,247            623,913
            Total liabilities                                          2,202,131          2,525,875
Net position:
  Cumulative results of operations                                     1,969,364          3,118,037
            Total liabilities and net position                     $   4,171,495     $    5,643,912


See accompanying notes to financial statements.




                                                                                                             

                                                    U.S. Department of Labor – Office of Inspector General
                                                 13                     Report Number: 22-12-005-04-432
                                     District of Columbia Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report



                          DISTRICT OF COLUMBIA WORKERS'
                          COMPENSATION ACT SPECIAL FUND
                                   Statements of Net Cost
                         Years ended September 30, 2011 and 2010


                                                                     2011                 2010
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                   $     8,318,300      $    8,568,690
  Wage increase compensation, Section 10(h)                          504,351             548,257
  Compensation payment for self-insurer in default,
    Section 18(b)                                                    246,820             241,446
  Rehabilitation Services, Section 39(c)                               3,790                  —
            Net cost of operations                           $     9,073,261      $    9,358,393


See accompanying notes to financial statements.




                                                                                                       

                                              U.S. Department of Labor – Office of Inspector General
                                         14                       Report Number: 22-12-005-04-432
                                          District of Columbia Workers’ Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKERS'
                           COMPENSATION ACT SPECIAL FUND
                            Statements of Changes in Net Position
                          Years ended September 30, 2011 and 2010


                                                                        2011                 2010
Cumulative results of operations, beginning                     $     3,118,037      $    3,979,884
Budgetary financing sources:
  Non-exchange revenues (Note 1i):
    Investment interest                                                   2,326               4,773
    Fines & Penalties                                                    45,000              60,000
    Assessments                                                       7,877,262           8,431,773
            Total non-exchange revenues                               7,924,588           8,496,546
Net cost of operations                                               (9,073,261)         (9,358,393)
            Net position, end of period                         $     1,969,364      $    3,118,037


See accompanying notes to financial statements.




                                                                                                          

                                                 U.S. Department of Labor – Office of Inspector General
                                              15                     Report Number: 22-12-005-04-432
                                      District of Columbia Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKERS'
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Budgetary Resources
                         Years ended September 30, 2011 and 2010


                                                                  2011                 2010
Budgetary resources:
  Unobligated balance, brought forward                   $      5,493,754     $       6,224,904
  Budget authority
    Appropriations received (assessments)                       8,073,759            8,555,411
           Total budgetary resources                     $     13,567,513     $     14,780,315
Status of budgetary resources:
  Obligations incurred (Note 6)
     Direct                                              $      9,549,674     $       9,286,561
  Unobligated balances - available:
     Other available - exempt from apportionment                4,017,839            5,493,754
            Total status of budgetary resources          $     13,567,513     $     14,780,315
Change in obligated balance:
  Obligated balance , net
    Unpaid obligations, brought forward, October 1       $         26,076     $              —
  Obligations incurred, net                                     9,549,674             9,286,561
  Less: Gross Outlays                                          (9,530,190)           (9,260,485)
  Obligated balance, net, end of period
    Unpaid obligations                                   $          45,560    $          26,076
Outlays:
 Gross Outlays                                           $      9,530,190     $       9,260,485
 Net outlays                                             $      9,530,190     $       9,260,485


See accompanying notes to financial statements.




                                                                                                      

                                             U.S. Department of Labor – Office of Inspector General
                                          16                     Report Number: 22-12-005-04-432
                                        District of Columbia Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                           Years ended September 30, 2011 and 2010


(1)    Summary of Significant Accounting Policies
      The principal accounting policies which have been followed in preparing the
      accompanying financial statements for the Fund are set forth below.
      (a) Reporting    Entity
            These financial statements present the financial position, net cost of operations,
            changes in net position, and budgetary resources of the District of Columbia
            Workers’ Compensation Act Special Fund (the Fund). The fund is administered by
            the Department of Labor (DOL), Office of Workers’ Compensation Programs
            (OWCP), Division of Longshore and Harbor Workers’ Compensation program
            (DLHWC). The DLHWC has direct responsibility for administration of the Fund. The
            Fund offers compensation, and in certain cases, medical care payments to District
            of Columbia employees for work related injuries or death incurred on or before July
            26, 1982. Effective July 26, 1982, the District of Columbia Workers’ Compensation
            Act was amended whereby the Mayor of the District of Columbia became
            responsible for administration and operation of a separate special fund to cover post
            July 26, 1982, injury cases.
            Additionally, the District of Columbia Workers’ Compensation Act Section 10(h)
            provides annual wage increase compensation (cost of living adjustments). Fifty
            percent of this annual wage increase for pre-1972 compensation cases is paid by
            Federal appropriated funds and fifty percent is paid by the Fund through the annual
            assessment. Appropriated funding for 10(h) is not reflected in the accompanying
            financial statements. Appropriated funding is reflected in the Federal Employees
            Compensation Act Special Benefit Fund. Also, these financial statements do not
            include the special fund administered by the Mayor of the District of Columbia for
            injury cases occurring after July 26, 1982.
      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of operations,
            changes in net position and budgetary resources, in accordance with U.S. generally
            accepted accounting principles and the form and content requirements of Office of
            Management and Budget (OMB) Circular A-136, Financial Reporting Requirements.
            These financial statements have been prepared from the books and records of the
            Fund. These financial statements are not intended to present, and do not present,
            the full cost of the District of Columbia Workers’ Compensation Act Program (the
            Program). In addition to the Fund costs presented in these statements, the full cost
                                                                                                        

                                               U.S. Department of Labor – Office of Inspector General
                                             17                    Report Number: 22-12-005-04-432
                                   District of Columbia Workers’ Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report



                      DISTRICT OF COLUMBIA WORKERS’
                      COMPENSATION ACT SPECIAL FUND
                          Notes to the Financial Statements
                    Years ended September 30, 2011 and 2010


      of the Program would include certain direct costs of OWCP in the form of salaries
      and expenses for administration of the Fund and allocated costs of OWCP and
      other DOL agencies incurred in support of the Program. The full cost of the Program
      is included in the DOL consolidated financial statements and related notes. The
      Fund is considered a fiduciary activity of DOL, and is properly disclosed and
      reported in the consolidated financial statements of DOL as a fiduciary fund.
      U.S. generally accepted accounting principles encompass both accrual and
      budgetary transactions. Under accrual accounting, revenues are recognized when
      earned, and expenses are recognized when a liability is incurred. Budgetary
      accounting facilitates compliance with legal constraints on, and controls over, the
      use of Federal funds. These financial statements are different from the financial
      reports, also prepared for the Fund pursuant to OMB directives, used to monitor the
      Fund’s use of budgetary resources.
(c)   Funds with U.S. Treasury
      The Fund does not maintain cash in commercial bank accounts. Cash receipts and
      disbursements are processed by the U.S. Treasury. The Funds with U.S. Treasury
      are trust funds that are available to pay current liabilities and finance authorized
      purchase commitments.
(d) Investments,    Net
      Investments in U.S. Government securities are reported at cost, net of unamortized
      premiums or discounts, which approximate market value. Premiums or discounts
      are amortized on a straight-line basis, which approximates the effective interest
      method. The Fund’s intent is to hold investments to maturity, unless they are
      needed to finance claims or otherwise sustain the operations of the Fund. No
      provision is made for unrealized gains or losses on these securities because, in the
      majority of cases, they are held to maturity.
(e) Accounts     Receivable, Net
      The amounts due as receivables are stated net of an allowance for uncollectible
      accounts. The allowance is estimated based on past experience in the collection of
      the receivables and an analysis of the outstanding balances. Accounts receivable
      are comprised of assessments receivable and the Fund’s benefit overpayments to
      individuals primarily from amended compensation orders and corrections of
      payment computations.

                                                                                                   

                                          U.S. Department of Labor – Office of Inspector General
                                        18                    Report Number: 22-12-005-04-432
                                   District of Columbia Workers’ Compensation Act Special Fund
                                          Financial Statements and Independent Auditors’ Report



                       DISTRICT OF COLUMBIA WORKERS’
                       COMPENSATION ACT SPECIAL FUND
                           Notes to the Financial Statements
                     Years ended September 30, 2011 and 2010


(f)   Accrued Benefits Payable
      The Fund provides compensation and medical benefits for work related injuries to
      employees of the District of Columbia that were incurred on or before July 26, 1982.
      The Fund recognizes a liability for disability benefits payable to the extent of unpaid
      benefits applicable to the current period. It does not include a liability for those
      estimated claims to be presented and paid by the Fund related to covered workers
      in future years. Ultimate responsibility for the payment of such claims rests with the
      employer organizations. Accrued disability benefits payable as of September 30,
      2011 amounted to $47,943, and as of September 30, 2010 they amounted to
      $26,076.
(g) Other    Liabilities
      Other liabilities are comprised primarily of assessment overpayments by insurance
      carriers or self-insured employers which are to be refunded at the insurance carrier
      or self-insured employer’s request or applied to reduce future assessments. Also
      included in other liabilities are amounts received by the Fund from defaulted
      employers which are being held as security by authority of Section 32 of the
      Longshore and Harbor Workers’ Compensation Act (LHWCA). These funds and
      investments are available for compensation and medical benefits to covered
      employees of the defaulted companies. Management estimates that these funds
      and investments held will be sufficient to cover the future benefits associated with
      the covered employees.
(h) Deferred    Revenue
      Deferred revenue represents the unearned assessment revenue as of
      September 30, the Fund’s accounting year end. The annual assessments cover a
      calendar year and, accordingly, the portion extending beyond September 30 has
      been deferred. Deferred revenue reported on the balance sheets is considered
      “Other Liabilities” under OMB Circular A-136.
(i)   Financing Sources Other Than Exchange Revenue
      Non-exchange revenues arise from the Federal government’s power to demand
      payments from and receive donations from the public. Non-exchange revenues are
      recognized by the Fund for assessments and penalties levied against the public and
      interest income from investments.


                                                                                                   

                                          U.S. Department of Labor – Office of Inspector General
                                        19                    Report Number: 22-12-005-04-432
                                              District of Columbia Workers’ Compensation Act Special Fund
                                                     Financial Statements and Independent Auditors’ Report



                            DISTRICT OF COLUMBIA WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                   Notes to the Financial Statements
                           Years ended September 30, 2011 and 2010


             The Fund’s primary source of revenue is annual assessments levied on insurance
             carriers and self-insured employers. Assessments are recognized as non-exchange
             revenue when due. The Fund receives interest on Fund investments and on Federal
             funds in the possession of non-Federal entities. The Fund also receives revenue
             from penalties assessed in accordance with various sections of the LHWCA.
      (j)    Adjustments to FY 2010 Statement of Budgetary Resources
             During FY 2011, management determined that Appropriations Received and
             Unobligated balances – available were overstated by approximately $2.4 million in
             the previously issued FY 2010 Fund Statement of Budgetary Resources. These
             overstatements, which had no impact on the other Fund 2010 basic financial
             statements, were corrected in the accompanying FY 2010 Statement of Budgetary
             Resources.
(2)    Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2011 and 2010 consisted of cash deposits of
      $353 and $353,404 respectively. There was $1 in cash deposits at September 30, 2011
      and $60 in cash deposits at September 30, 2010 being held as security by authority of
      Section 32 of the LHWCA. These funds relate to the default of self-insured employers
      and are available for payment of compensation and medical benefits to covered
      employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2011 consisted of the following:
                                                     Entity Assets
                                Unobligated   Unobligated     Obligated
                                 Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)               Available    Unavailable Yet Disbursed Entity Assets    Assets      Total

      Trust Fund            $           —             —           353           353            —         353




      Funds with U.S. Treasury at September 30, 2010 consisted of the following:
                                                     Entity Assets
                                Unobligated   Unobligated     Obligated
                                 Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)               Available    Unavailable Yet Disbursed Entity Assets    Assets      Total

      Trust Fund            $           —             —        353,404      353,404            —     353,404




                                                                                                               

                                                      U.S. Department of Labor – Office of Inspector General
                                                    20                    Report Number: 22-12-005-04-432
                                          District of Columbia Workers’ Compensation Act Special Fund
                                                 Financial Statements and Independent Auditors’ Report



                             DISTRICT OF COLUMBIA WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                            Years ended September 30, 2011 and 2010


(3)    Investments, Net
      Investments at September 30, 2011 and 2010 consisted of the following:
                                                          September 30, 2011
                                          Face          Premium          Net             Market
      (In Dollars)                        Value        (Discount)      Value             Value
      Intragovernmental securities:
         Non-Marketable:
           Par value                  $ 4,042,000             —        4,042,000       4,042,000


                                                            September 30, 2010
                                            Face          Premium          Net             Market
      (In Dollars)                          Value        (Discount)      Value             Value
      Intragovernmental securities:
         Non-Marketable:
           Par value                  $   5,143,000             —        5,143,000        5,143,000


      Investments of $58,800 and $58,700 at September 30, 2011 and 2010, respectively, are
      restricted assets that are being held as security by authority of Section 32 of the LHWCA.
      These investments are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies. Investments at September 30, 2011 and
      2010 consist of overnight securities. Investments at September 30, 2011 bear an interest
      rate of 0.00% compared to an interest rate of 0.13% at September 30, 2010. Interest
      rates on securities bought and sold during fiscal year (FY) 2011 ranged from 0.00% to
      0.18% compared to 0.01% to 0.17% for FY 2010.




                                                                                                          

                                                 U.S. Department of Labor – Office of Inspector General
                                               21                    Report Number: 22-12-005-04-432
                                                 District of Columbia Workers’ Compensation Act Special Fund
                                                        Financial Statements and Independent Auditors’ Report



                                 DISTRICT OF COLUMBIA WORKERS’
                                 COMPENSATION ACT SPECIAL FUND
                                       Notes to the Financial Statements
                                Years ended September 30, 2011 and 2010


(4)    Accounts Receivable, Net
      Accounts receivable at September 30, 2011 and 2010 consisted of the following:
      (In Dollars)                                                                   2011                 2010

         Benefit overpayments                                                  $     106,243     $        136,234
         Assessments receivable                                                       23,079               12,647
         Less: allowance for doubtful accounts                                          (180)              (1,373)
           Total accounts receivable from the public, net                      $     129,142     $        147,508


      Assessments receivable represent the unpaid annual assessments from the current
      year. Accounts receivable from benefit overpayments to claimants arise primarily from
      amended compensation orders and corrections of payment computations. These
      receivables are being primarily recovered by partial and total withholding of benefit
      payments.
      Changes in the allowance for doubtful accounts during FY 2011 and FY 2010 consisted
      of the following:
                                                                     2011
                                       Allowance         Write                           Allowance
      (In Dollars)                   October 1, 2010     Offs          Bad Debt      September 30, 2011

      Entity assets:
        Benefit overpayments    $            (1,057)             —            935                 (122)
        Assessment receivable                  (316)             —            258                  (58)

                                $            (1,373)             —           1,193                (180)




                                                                     2010
                                       Allowance         Write                           Allowance
      (In Dollars)                   October 1, 2009     Offs          Bad Debt      September 30, 2010

      Entity assets:
        Benefit overpayments     $           (1,910)             —             853              (1,057)
        Assessment receivable               (26,950)             —          26,634                (316)

                                 $          (28,860)             —          27,487              (1,373)




                                                                                                                     

                                                         U.S. Department of Labor – Office of Inspector General
                                                       22                    Report Number: 22-12-005-04-432
                                               District of Columbia Workers’ Compensation Act Special Fund
                                                      Financial Statements and Independent Auditors’ Report



                                  DISTRICT OF COLUMBIA WORKERS’
                                  COMPENSATION ACT SPECIAL FUND
                                       Notes to the Financial Statements 

                                Years ended September 30, 2011 and 2010



(5)    Other Liabilities
      Other liabilities at September 30, 2011 and 2010 consisted of the following current
      liabilities:

      (In Dollars)                                                     2011              2010
      Other liabilities:

         Assessment overpayments by carriers                   $        95,446   $       565,153 

         Defaulted employer liability:

           Held in investments                                          58,800            58,700 

           Held in cash                                                      1                60 

                                                                        58,801            58,760
                     Total other liabilities                   $       154,247   $       623,913




      Assessment overpayments are to be refunded upon request or applied to reduce future
      assessments.
      Defaulted employer liability relates to the funds and investments held by the District of
      Columbia Special Fund which are being held as security by authority of Section 32 of the
      LHWCA. These funds and investments are available for compensation and medical
      benefits to covered employees of the defaulted companies. Management estimates that
      these funds and investments held will be sufficient to cover the future benefits associated
      with the covered employees.




                                                                                                               

                                                      U.S. Department of Labor – Office of Inspector General
                                                    23                    Report Number: 22-12-005-04-432
                                        District of Columbia Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                           DISTRICT OF COLUMBIA WORKERS’

                           COMPENSATION ACT SPECIAL FUND 

                                Notes to the Financial Statements
                         Years ended September 30, 2011 and 2010


(6) 	 Status of Budgetary Resources
   (a) 	 Apportionment Categories of Obligations Incurred
        Obligations incurred reported on the Statement of Budgetary Resources in FY 2011
        and FY 2010 consisted of the following:
        (In Dollars)	                                                      2011              2010
        Direct Obligations:
           Exempt from apportionment                             $        9,549,674     $   9,286,561


   (b) 	 Explanation of Differences Between the Statement of Budgetary Resources
         and the Budget of the United States Government
        The budgetary resources, obligations incurred and outlays of the Fund are
        combined with the Longshore and Harbor Workers’ Compensation Act Special Fund
        in the Program and Financing schedule of the Budget of the United States
        Government. A reconciliation of budgetary resources, obligations incurred and
        outlays, as presented in the Fund’s Statement of Budgetary Resources to amounts
        included in the Budget of the United States Government for the year ended
        September 30, 2010 is shown below:

                                                             Budgetary       Obligations
        (Dollars in Millions)                                Resources        Incurred       Outlays
        Statement of Budgetary Resources - DCCA          $           15                 9           9

        Amounts included in the Statement of Budgetary
        Resources - LHWCA                                        188                  128        126
        Amounts included in the Statement of Budgetary
        Resources subsequent to submission of budget                 10                2            4

        Total Statement of Budgetary Resources	                  213                  139        139

        Budget of the United States Government           $       213                  139        139




                                                                                                         

                                                U.S. Department of Labor – Office of Inspector General
                                              24                    Report Number: 22-12-005-04-432
                                                District of Columbia Workers’ Compensation Act Special Fund
                                                       Financial Statements and Independent Auditors’ Report



                                DISTRICT OF COLUMBIA WORKERS’
                                COMPENSATION ACT SPECIAL FUND
                                     Notes to the Financial Statements
                              Years ended September 30, 2011 and 2010


(7)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations

                                                                                2011              2010
      Obligations incurred                                                $   9,549,674    $    9,286,561
                    Total resources used to finance activities                9,549,674         9,286,561
      Resources used to finance items not part of the 

        net cost of operations

        Resources that finance expenses recognized

          in prior periods                                                     (507,862)                 —
                   Total resources used to finance items
                     not part of the net cost of operations                    (507,862)                 —
                   Total Resources used to finance the
                     net cost of operations                                   9,041,812         9,286,561
      Components not requiring or generating resources:
                                                                                 (935)
        Revaluation of assets and liabilities                                                       (853) 

        Other                                                                   32,384             72,685 

                    Total components of net cost of operations
                      that will not require or generate resources                31,449            71,832
                          in the current period
                    Net cost of operations                                $   9,073,261    $    9,358,393


(8)   Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at a
      time for current expenses; there is no reserve for future Fund obligations. In keeping
      with the requirement of Section 44 of the LHWCA, obligations are paid as they are
      incurred. Assessments are based on compensation and medical benefits paid in the
      prior calendar year. As previously discussed, the District of Columbia Workers’
      Compensation Act of 1928 has been repealed and the Fund only assesses based on
      payments in cases that arose on or before July 26, 1982. Therefore, the annual
      assessment is assessed for a shrinking population of claims.




                                                                                                                  

                                                         U.S. Department of Labor – Office of Inspector General
                                                       25                    Report Number: 22-12-005-04-432
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:       1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
